<html>
<title> - OVERSIGHT HEARING: NRC'S IMPLEMENTATION OF THE FUKUSHIMA NEAR-TERM TASK FORCE RECOMMENDATIONS AND OTHER ACTIONS TO ENHANCE AND MAINTAIN NUCLEAR SAFETY</title>
<body><pre>[Senate Hearing 113-744]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-744

OVERSIGHT HEARING: NRC'S IMPLEMENTATION OF THE FUKUSHIMA NEAR-TERM TASK 
FORCE RECOMMENDATIONS AND OTHER ACTIONS TO ENHANCE AND MAINTAIN NUCLEAR 
                                 SAFETY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                            JANUARY 30, 2014

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys














                                                        S. Hrg. 113-744

OVERSIGHT HEARING: NRC'S IMPLEMENTATION OF THE FUKUSHIMA NEAR-TERM TASK 
FORCE RECOMMENDATIONS AND OTHER ACTIONS TO ENHANCE AND MAINTAIN NUCLEAR 
                                 SAFETY

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 30, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-582 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JEFF SESSIONS, Alabama
SHELDON WHITEHOUSE, Rhode Island     MIKE CRAPO, Idaho
TOM UDALL, New Mexico                ROGER WICKER, Mississippi
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York         DEB FISCHER, Nebraska
CORY A. BOOKER, New Jersey

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                  THOMAS R. CARPER, Delaware, Chairman
MAX BAUCUS, Montana                  JEFF SESSIONS, Alabama
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     ROGER WICKER, Mississippi
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
BARBARA BOXER, California (ex        DAVID VITTER, Louisiana (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 30, 2014
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     4
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     5
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     7
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     8
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...    10
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska, 
  prepared statement.............................................   515

                               WITNESSES

Macfarlane, Hon. Allison M., Chairman, U.S. Nuclear Regulatory 
  Commission.....................................................    11
    Prepared statement...........................................    14
    Responses to additional questions from:
        Senator Boxer............................................    35
        Senator Carper...........................................    57
        Senator Gillibrand.......................................    61
        Senator Vitter...........................................    71
        Senator Sessions.........................................   192
        Senator Boozman..........................................   210
        Senator Fischer..........................................   225
Svinicki, Hon. Kristine L., Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................   228
    Responses to additional questions from:
        Senator Carper...........................................   229
        Senator Vitter...........................................   231
        Senator Sessions.........................................   312
        Senator Boozman..........................................   325
Apostolakis, Hon. George, Commissioner, U.S. Nuclear Regulatory 
  Commission.....................................................   331
    Response to an additional question from Senator Carper.......   332
    Responses to additional questions from:
        Senator Vitter...........................................   333
        Senator Sessions.........................................   335
        Senator Boozman..........................................   338
Magwood, Hon. William D. IV, Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................   341
    Responses to additional questions from:
        Senator Carper...........................................   342
        Senator Vitter...........................................   346
        Senator Sessions.........................................   461
        Senator Boozman..........................................   474
Ostendorff, Hon. William C., Commissioner, U.S. Nuclear 
  Regulatory Commission..........................................   486
    Response to an additional question from Senator Boozman......   487
    Responses to additional questions from:
        Senator Carper...........................................   488
        Senator Sessions.........................................   491

 
OVERSIGHT HEARING: NRC'S IMPLEMENTATION OF THE FUKUSHIMA NEAR-TERM TASK 
FORCE RECOMMENDATIONS AND OTHER ACTIONS TO ENHANCE AND MAINTAIN NUCLEAR 
                                 SAFETY

                              ----------                              


                       THURSDAY, JANUARY 30, 2014

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,

         Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Vitter, Carper, Sanders, 
Gillibrand, Inhofe, Sessions, Wicker, Boozman, and Fischer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Hearing will come to order.
    Today we are holding our eighth NRC oversight hearing since 
the earthquake, tsunami, and nuclear meltdown in Japan.
    The third anniversary of Fukushima is coming, and Japan is 
still struggling. Failed efforts to prevent radioactive water 
from washing into the sea have led officials there to build a 
huge underground ice wall. And it will be at least 3 more years 
before 60,000 local residents can return to their homes safely.
    We must learn from the tragic events in Fukushima and take 
all necessary steps to ensure the safety of our own nuclear 
facilities.
    Now, more than 2 years ago the NRC charged its most senior 
nuclear safety officials with making recommendations to help 
prevent such a disaster here. Some of the 12 recommendations 
that NRC's task force proposed have been acted on. The NRC 
issued orders to enhance safety when plants lose electrical 
power and to increase the reliability of venting systems to 
prevent explosions. That is good.
    But other measures have not moved forward. For example, the 
NRC has allowed 3 full years for seismic evaluations of nuclear 
reactors in the western United States to be completed. If a 
seismic evaluation finds that there is a seismic risk, the NRC 
provides an additional 3 years for yet more analysis. To me, 
this is an unacceptable delay, because earthquakes aren't going 
to wait until your paperwork is done.
    Now, when the NRC is made aware of a new seismic risk, as 
it was for the Diablo Canyon Nuclear Facility near San Luis 
Obispo in my State, it should require immediate steps be taken 
to protect the people who live and work near these facilities.
    On another issue, our ability to conduct oversight is being 
impeded by a lack of cooperation from the NRC. During my 
investigation of the San Onofre Nuclear Power Plant in 
California, I learned that NRC's general counsel directed NRC 
staff to withhold documents that I requested. My investigation 
into why flawed equipment was installed at San Onofre is very 
important, as it will provide lessons learned for the 
Commission's future safety decisionmaking activities.
    The NRC's response to my investigation is not the only 
recent example of the agency's effort to avoid congressional 
oversight. Last fall, the NRC attempted to unilaterally change 
its policy on providing information to Congress from one that 
generally made non-public documents available to one that did 
not. The new policy even added restrictions that could have 
been used to withhold information from the chair and ranking 
member of this oversight committee, even though each of you, as 
you were up for your confirmation, absolutely agreed to make 
all documents available; and my counsel tells me, whether you 
were sworn in or not, it is considered a sworn statement.
    Congress unambiguously rejected this new policy when it 
rescinded that policy, your policy in the appropriations, and I 
want to thank the bipartisan leadership of that committee for 
making sure that you can't do that.
    NRC still has not responded to my document requests in a 
manner that is consistent with congressional direction, and I 
will not back down on this matter. In recent letters, the NRC 
cites non-specific constitutional separation of powers as a 
basis for continuing to withhold documents from our committee. 
However, there is simply no constitutional basis that this is 
applicable to the documents in question.
    Finally, I note that excessive travel by NRC commissioners 
is of concern. I am going to ask you about your travel. It has 
been difficult to schedule oversight hearings because one or 
the other is somewhere in the world. I am also mystified as to 
why the travel records provided to me are marked ``non-
public.'' I plan to ask questions about the lack of 
transparency and scheduling of your travels.
    During a period where reactors are closing unexpectedly due 
to adverse safety or economic conditions, the NRC's role as a 
strong safety regulator has never been more important. However, 
I am concerned that whistleblowers who have raised safety and 
other concerns within the NRC have been ignored.
    So those are issues of deep concern to me. I intend to ask 
you about all of them. I look forward to hearing your open and 
complete answers.
    And I would turn to my ranking member.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair, for convening 
today's hearing. I also want to thank our NRC commissioners for 
being so accommodating with your schedules after the previous 
hearing was postponed to facilitate the majority's vote on the 
nuclear option. Thank you for coming back.
    As the chair alluded, many of these hearings have been 
scheduled and canceled because of the chair's ongoing pursuit 
of documentation from the NRC. While I disagree with the chair 
on many aspects of that issue, I do want to note for the record 
her aggressive fight for complete transparency of agencies 
under the jurisdiction of this committee, and I welcome her to 
that position and look forward to following up on that, with 
regard to the EPA, as well.
    I want to briefly revisit some of the points I made during 
the November hearing before we get to your testimony.
    The NRC's compliance with the U.S. Court of Appeals for the 
D.C. Circuit's decision is a very important step forward in 
addressing the long-term management of nuclear waste in the 
legal commitment to Yucca Mountain. More importantly, it is a 
step in the right direction for the Federal Government, after 
years of political games, quite frankly, taking precedent over 
good policy and agency stewardship. To date, Yucca Mountain has 
resulted in over $15 billion of spending, with very little 
forward movement. It is really irresponsible and a failure of 
leadership that the Yucca Mountain safety evaluation report was 
halted in the first place, and it shouldn't have required a 
court ruling for the agency to comply with that law.
    Nuclear energy has become an indispensable contributor to 
our base load electricity needs, and it will continue to be for 
years to come. As the Commission continues to develop new 
regulations, it should certainly keep in mind the negative 
consequences that have resulted in specific cases from 
misguided regulations and Federal interferences. We have seen, 
in recent years, what clearly negative results can ensue when 
either the Commission loses sight of its clear mission or 
partisan politics sway decisions.
    Regulations for the sake of regulating can become a 
profound burden on our fellow Americans who rely on nuclear 
energy to meet their everyday needs, and the negative effects 
of an unwarranted plant closure can result in more than just a 
diminished power supply, but economic hardship, loss of jobs, 
negative environmental impacts. The very nature of the NRC 
requires its leadership to operate independently of political 
and ideological pressures, and in a transparent manner, that 
focuses on the safety and energy reliability needs of all of 
our communities.
    Certainly, the effects of the 2011 Fukushima accident will 
continue to play a significant role in future regulation of the 
nuclear industry, and we all agree with that and we all care, 
first and foremost, by far, about safety. But we need to put 
that in proper context and understand our U.S. nuclear fleet, 
which is the safest in the world; was before Fukushima, is 
today.
    Thank you all very much for being here.
    Senator Boxer. Thank you very much, Ranking Member Vitter.
    Senator Carper will go next; he is the subcommittee chair. 
And if it is OK with your side, Senator Sessions will then go; 
he is the subcommittee ranking member. All right.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Madam Chair. Thank you very much 
for pulling this together today; it is nice to see all the 
members of our panel, and thank you for your service.
    My colleagues have heard me say more than a few times, but 
it bears repeating today, that I believe the NRC plays a 
critical role in protecting the public and our environment, and 
impacting our energy security. It is with that in mind that we 
must continue to have the nuclear power and the mix of energy 
resources as part of the all of the above approach that the 
President referred to Tuesday night in his state of the Union 
address with respect to our Nation's energy policy.
    I believe that again today, because sometimes here in 
Congress we lose sight of the importance of good governance, we 
lose sight of the important work that our Federal work force 
does on a day-in and day-out basis. When Congress decides not 
to do our basic job, like providing funding certainty for the 
Federal Government, Federal agencies like the NRC have a really 
difficult time in trying to do your jobs, and I would say that 
the NRC's job is one of the most important in our country.
    But as many of you know, I do try to find, whenever I can, 
a silver lining in most situations, the Government's shutdown 
is no exception here. Despite the extreme obstacles that we in 
Congress put before the NRC and other Federal agencies this 
last October during the Government shutdown, the Commission and 
its employees at the NRC rose to the challenge and found ways 
to ensure that our nuclear facilities remained safe in this 
country. I hope we never have to go through that again, and I 
am sure you share that sentiment, but I would like to commend 
the leadership of the Commission and the NRC work force for 
their outstanding efforts during a particularly trying time.
    Since October, Congress has passed a budget, as we know, 
and a spending plan that sees us through the near future. These 
accomplishments are stepping stones, we hope, toward a 
functioning Government and away from the model of governance 
that has led us moving literally from one crisis to the next.
    Finally, I think we are starting to do our jobs, and when 
we do our jobs the NRC is better able to do its job. Right now, 
the NRC has plenty on your plate. Not only is the NRC ensuring 
existing reactors continue to run safely, but the Commission is 
implementing lessons learned from Fukushima and all of our 
reactors, overseeing the construction of the first new reactors 
in some 30 years, and trying to help our reactors grapple with 
their nuclear waste as we continue to debate our nuclear waste 
policy. All the while our nuclear reactors are facing economic 
and climate challenges that they have never seen before, 
putting additional challenges on the nuclear industry.
    Today is an important opportunity to check in and see how 
the NRC is doing and how you are handling these challenges, and 
I look forward to today's dialogue with the Commission and with 
our colleagues here on the panel.
    One final word, and that is despite where my colleagues may 
sit on this dais and where we are on the issue of nuclear 
power, I believe we all want a safe nuclear fleet. I also 
believe that is true of the commissioners that are here before 
us. Sometimes we disagree on how to get there, but at the end 
of the day we all do share the same goal. And because nuclear 
power is a very sensitive and often a very technical issue, I 
have found that many of our disagreements are caused not by 
differing views, but because maybe of a lack of communications 
or breakdown in communications. That is why I encourage my 
colleagues and this Commission to continue to find ways to 
communicate better with one another and with the public that we 
serve.
    As I have said a time or two before, I believe that our 
nuclear power plants are some of the safest, maybe the safest 
in the world. We look forward to working with the Commission, 
our colleagues, and the nuclear industry to ensure that we reap 
the benefits of nuclear power by ensuring that safety continues 
to be our No. 1 priority.
    Thank you very much, Madam Chair.
    Senator Boxer. Thank you very much, Subcommittee Chairman.
    Now we turn to the ranking member on the subcommittee, 
Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Madam Chairman, and thank you, 
Senator Carper, for your leadership on the subcommittee. You 
are indeed an excellent chairman; work hard, you take 
responsibility for this, and, to a degree unusual in this 
Senate, you stay on top of the Commission and the activities, 
and you have invited me, in a bipartisan way, to participate in 
that. A good example for us all.
    This is our first meaningful oversight hearing with the NRC 
since September 2012, when the NRC had just emerged from a 
tumultuous period under your previous chairman. It is good that 
under the leadership of Chairman Macfarlane, and with the 
support of her four colleagues, the NRC has stabilized and 
seems to be functioning well. It is an important task that you 
have at this time of fragile support, fragile, I guess, 
stability in the nuclear industry. A few bad decisions could 
deal a body blow to that whole industry.
    There are many issues to review this morning, such as post-
Fukushima actions, the cumulative effect of regulations, status 
of Yucca Mountain licensing activities.
    In 2001, nuclear energy comprised 20.6 percent of total 
U.S. electricity generation, and even more recently many of us 
here anticipated a nuclear renaissance that would allow the 
percentage to increase. Congress took steps, such as 
streamlining the NRC licensing process, to help facilitate 
expanded reliance on nuclear power. We thought it was the right 
thing to do.
    Regrettably, however, by 2012, our reliance on nuclear 
power has declined to 19 percent. The U.S. is still producing 
basically the same amount of megawatt hours of nuclear power as 
it did in 2001, and I am deeply concerned about a rash of 
shutdowns on U.S. nuclear power plants like Kewaunee Power 
Station, Wisconsin, Vermont Yankee, Crystal River Unit 3 in 
Florida, SONGS Unit 2 and 3 in California.
    Last August, Duke Energy announced it would not move 
forward with its Levy County, Florida, nuclear power plant 
project, which was previously scheduled for licensing.
    Last June, the Tennessee Valley Authority announced plans 
to scale back work at the Bellefonte Nuclear Generating 
Station, raising new doubts about when that important project 
would be completed.
    Modern nuclear power plants, which Bellefonte would be, 
constitute long-term assets that can provide safe, affordable, 
reliable, and clean energy for taxpayers and ratepayers for 
decades to come.
    In last month's edition of Nuclear News, a publication of 
the nuclear society, the senior editor noted that the United 
States is, to our dismay, now in an era in which decisions can 
be made to close reactors, some of which have been operating 
and continue to be exemplary performers, producing electricity 
safely and at close to peak capacity.
    So what factors are at issue here? There seem to be many. 
Are decisions by grid operators skewed away from nuclear energy 
and toward other sources like wind power or due to Federal 
policies? The article seems to raise that question. The article 
also notes that nuclear operators are still counting the costs 
of compliance with lessons learned from Fukushima. Total costs 
can currently only be estimated, he says, but any extra cost to 
normal operation could cast doubt on any reactor's continued 
operation. So this is a factor.
    What about the confidence issue, waste confidence issue, is 
that a factor? We haven't settled that sufficiently. What 
market forces are at work?
    So there are many important questions to consider. I hope 
Congress will take the time, as we look to develop a coherent 
energy policy, to consider the role of nuclear power in our 
energy future. I firmly believe the U.S. should remain the 
world's leading nuclear producer.
    Plant Vogtle. There has been some good news. Southern 
Company and their partners continue to make good progress with 
Plant Vogtle, where two new 1,100 megawatt AP1000 units, the 
most advanced in the world, are under construction. Vogtle 
Units 3 and 4 will be the first new nuclear units built in the 
United States in the last three decades. Operations are 
expected to begin in 2017 and 2018, not too far away.
    Since the focus of our hearing today is post-Fukushima 
actions, it is important to keep in mind that these new units 
at Plant Vogtle will have pressurized water reactors, including 
Westinghouse AP1000 and a passive cooling system. The 
technology is designed to ensure that the kinds of failures 
experienced at Fukushima cannot occur here.
    Thank you, Madam Chairman.
    Senator Boxer. Thanks, Senator.
    We have a vote at 11:15. That means most of us have to get 
there by 11:30. So my hope is to conclude, so I am going to be 
tough on the gavel.
    Senator Sessions. I offer the remainder of my remarks for 
the record, please.
    Senator Boxer. Absolutely, put them in.
    Senator Inhofe, followed by, if there is no Democrat--oh, 
no, I am sorry. Right now it is Senator Sanders.
    [The referenced remarks were not received at time of 
print.]

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair. Thank you for 
holding this hearing and, commissioners, thank you very much 
for being with us this morning.
    Madam Chair, this oversight hearing is covering a wide 
range of very important issues, but I would like to focus on 
one specific issue, an issue I chatted about with with 
Chairperson Macfarlane not so long ago, and that is the need to 
provide a strong role for States, States, in the 
decommissioning process when a nuclear plant shuts down.
    Senator Sessions bemoaned the fact that the nuclear power 
plant in Vermont is going to be shut down. Senator, I would 
suggest to you that the people of Vermont would respectfully 
disagree with you. Many of them have wanted to shut that plant 
down for a very long period of time and feel pretty good about 
the decision to see it cease at the end of this year.
    The important point is, however, and I know our Governor 
and his administration have been working with Entergy, the 
owners of Vermont Yankee. The important issue here is the role 
of the State itself in terms of the decommissioning process. 
Right now, the rules, as I understand it, and obviously this 
applies not just to Vermont Yankee, but to nuclear power plants 
all over this country which are in the process of being shut 
down, what the rules do is allow the NRC to sit down with the 
companies and negotiate a decommissioning process. Generally 
speaking, the States do not have any significant role, Madam 
Chair, in that process. They can be observers, there can be 
public meetings, they can provide input, but at the end of the 
day the company and the NRC work out the plan.
    Madam Chair, I think on the face of it that just doesn't 
make a whole lot of sense. The people of a given State, whether 
it is Vermont or your State of California, it seems to me, have 
a right to have a place at the table. How long is the 
decommissioning process going to take place? Well, in the case 
of Vermont Yankee, I don't think this is going to be the case, 
but there was at one point some suggestion, well, it may take 
60 years. Sixty years. I don't think that is going to happen.
    Senator Boxer. Six-zero?
    Senator Sanders. Six-zero. Sixty years. That was a 
suggestion. Now, frankly, I don't think that that is going to 
happen; I don't think that is Entergy's intention. But imagine 
having a hulking mass in southern Vermont deteriorating for 60 
years. Nobody that I know in Vermont wants that to happen.
    What about the jobs? We are concerned one of the negatives 
of the shutdown of the nuclear power plant is the loss of 
decent paying jobs in southern Vermont. Everything being equal, 
we would like to see those workers who are currently employed 
get a shot at being part of the decommissioning process. They 
know the plant. I understand there is a difference in job 
description. Can that take place? I think it can. Should the 
State, maybe the union, be involved in that discussion? I think 
that they should.
    Now, the important point here is this is not an issue that 
just impacts Vermont. We have a number of nuclear power plants 
that are being decommissioned in the foreseeable future, 
including in States like California, Florida, Wisconsin, New 
Jersey, New York, and Ohio. And this clearly is not a Democrat 
or Republican or Independent issue; it is not rural or urban. 
This is a simple issue: Do the people of those States get a 
seat at the table?
    Right now the rules, as I understand it, really preclude 
States from sitting down. We can either change it through 
rules, and I will be asking you questions about that, or we can 
change it through law. But one way or another I think the 
States in this country should have a strong seat at the table.
    So, Madam Chair, that is my area of interest in this 
discussion and I thank you very much for allowing us to have 
it.
    Senator Boxer. Thank you.
    After we hear from our two Senators, my intention is to 
give everyone 10 minutes to have their back and forth, and 
hopefully that will mean we don't have to come back after.
    Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you.
    It was in 2003, when I was chairman of this committee, that 
the Nuclear Regulatory Commission asked Congress for a bigger 
budget to build new buildings and add significantly to the 
number of people. They expected approval of four design 
certifications for new reactor designs and 17 construction and 
operating license applications, or COLAs.
    Now 10 years later, that was 4 and 17, 10 years later the 
NRC has only approved one design and two COLAs. The NRC's 
workload did not increase the way that it was expected, and I 
have some questions about that, but the Commission still 
increased its staff by over 30 percent.
    Now, this is very concerning to me because over the past 
few years the Commission has been developing sweeping new 
regulations that impose draconian costs on the industry without 
producing sufficient benefits. It is as if the NRC, with its 
new building and all of its new people, have been using its 
spare time to come up with new things the nuclear industry must 
do to maintain compliance with the law.
    The NRC has done this most clearly in its reaction to 
Fukushima. While it is reasonable for us to review what went 
wrong there and to make sure that we are not vulnerable to the 
same problems, it is not reasonable for the NRC to use the 
disaster to justify new expensive rules that don't reduce risk. 
I question whether the NRC is still employing its own 
principles of good regulation.
    Just a few months after Fukushima, the NRC near-term task 
force released its papers showing that there is a minimal 
chance that the disaster at Fukushima would happen here. Not 
only are the U.S. nuclear plant designs more robust than 
Japan's, but our significant cultural differences, both within 
the plants and between the plants, and the NRC make it much 
less likely that we would face the same problem. It is really 
apples and oranges.
    Despite all this, the NRC is continuing to push new 
regulations in response to the Fukushima disaster, presuming 
that planning more and more contingencies and implementing more 
and more redundancies the right path to take, even when 
cumulative costs of these actions can exceed $100 million a 
plant.
    Everyone here wants to ensure that a disaster like the one 
at Fukushima does not happen in the United States and that 
really it comes down to keeping the reactor cool in the event 
of both offsite and onsite power is lost. Our plants are 
designed to protect against all external hazards with the 
occurrence rate of one in a million years. Unlike the plant in 
Fukushima, our onsite emergency diesel generators and fuel 
packs are located safely above the ground from floods, and we 
have external pumps ready to operate like a fire department in 
the event that first and second redundancies fail. The United 
States nuclear fleet is safe and it is well prepared to face 
the unforeseen events.
    The NRC has also continued to press the nuclear fleet to 
prepare for terrorist attacks in the wake of 9/11. The NRC has 
required a fleet to implement new security features and many of 
them work quite well, but we are getting close to crossing the 
point where additional requirements are simply adding cost 
without any benefits.
    When you add in the efforts of the EPA to impose more 
regulations on the water being used to cool reactors, claiming 
the new rules cost is justified because of all the fish it will 
keep from getting damaged, it is as if Government at the EPA 
and the NRC is trying to regulate the nuclear energy industry 
out of business, just like it has been trying to regulate 
fossil fuels out of business.
    Today there are more than 50 rules and other regulatory 
actions on tap at the NRC, which is more than I can remember 
since serving on this committee.
    I would submit the rest for the record, since I know I 
won't have time to do it, but I would say that this is 
something that we will cover in the questions that we ask. I 
think it is very significant that we keep in mind we need the 
nuclear energy, and there are some who don't want nuclear 
energy, and we don't want to use overregulation to accomplish 
the wrong goals.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you all for being here today.
    It was in 2003, when I was chairman of this committee, that 
the Nuclear Regulatory Commission asked Congress for a bigger 
budget to build a new building and add significantly to its 
staff to support the expected approval of four design 
certifications for new reactor designs and 17 construction and 
operating license applications (COLAs). Now, 10 years later, 
the NRC has only approved one design certification and two 
COLAs. The NRC's workload did not increase the way that it was 
expected, but the Commission still increased its staff by 
almost 30 percent.
    This is very concerning to me because over the past few 
years the Commission has been developing sweeping new 
regulations that impose draconian costs on the industry without 
producing sufficient benefits. It is as if the NRC, with its 
new building and all of its new people, has been using its 
spare time to come up with new things the nuclear industry must 
do to maintain compliance with the law.
    NRC has done this most clearly in its reaction to 
Fukushima. While it is reasonable for us to review what went 
wrong there and make sure we aren't vulnerable to the same 
problems, it is not reasonable for the NRC to use the disaster 
to justify new, expensive rules that do not reduce risk. I 
question whether the NRC is still employing its own 
``Principles of Good Regulations.''
    Just a few months after Fukushima, the NRC Near-Term Task 
Force released its paper showing that there is a minimal chance 
that the disaster in Fukushima would happen here. Not only are 
the U.S. nuclear plant designs more robust than Japan's, but 
our significant cultural differences--both within the plants 
and between the plants and the NRC--make it much less likely 
that we'll face the same problem.
    Despite this, the NRC is continuing to push new regulations 
in response to the Fukushima disaster, presuming that planning 
more and more contingencies and implementing more and more 
redundancies is the right path to take, even when the 
cumulative cost of these actions can exceed $100 million per 
plant.
    Everyone here wants to ensure that a disaster like the one 
in Fukushima does not happen in the United States, and that 
really comes down to keeping the reactor cool in the event that 
both offsite and onsite power is lost. Our plants are designed 
to protect against all external hazards with an occurrence rate 
of one in a million years; unlike the plant at Fukushima, our 
onsite emergency diesel generators and fuel packs are located 
safely above ground from floods, and we have external pumps 
ready to operate like a fire department in the event the first 
and second redundancies fail. The United States nuclear fleet 
is safe, and it is well prepared to face any unforeseen events.
    The NRC has also continued to press the nuclear fleet to 
prepare for terrorist attacks. In the wake of 9/11, the NRC has 
required the fleet to implement new security features, and many 
of them work quite well. But we're getting close to crossing 
the point where additional requirements are simply adding cost 
without any benefits.
    When you add in the efforts of the EPA to impose more 
regulations on the water being used to cool reactors, claiming 
the new rule's cost is justified because of all the fish it 
will keep from getting entrained and impinged, it's as if the 
Government--at EPA and NRC--is trying to regulate the nuclear 
energy industry out of business, just like it's trying to do 
with every other industry.
    Today there are more than 50 rules and other regulatory 
actions on tap at the NRC, which is more than I can remember 
since serving on this committee--many without any clear 
linkages to safety enhancement. Some are relatively small, but 
others--like EPA's 316(b) rule or the post-Fukushima required 
change to the Spent Fuel pool level instruments, are 
outrageously expensive. And when you look at them all 
together--when you take the cumulative impact of all of them--
even many of the small ones become unjustifiable. In the grand 
scheme of things, they just do not add much value to our 
already rock solid nuclear fleet.
    For the industry that is providing 20 percent of our 
Nation's electricity, we need to be careful not to overreact to 
world events by imposing unjustifiably expensive regulations 
onto this industry based on the assumption that more 
regulations will yield more safety and security.
    I thank you again for coming to testify here today. I look 
forward to the Q&A.

    Senator Boxer. Senator, thank you.
    Senator Wicker.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you, Madam Chair, for holding this 
hearing, and thank you to the NRC commissioners for again being 
here to offer their testimony.
    Our hearing in November was unexpectedly cut short due to 
the majority's regrettable insistence on changing the 
longstanding rules of the Senate with a nuclear option, so I am 
eager to hear today from our witnesses on some of the important 
issues facing the nuclear industry.
    The United States must truly embrace a comprehensive energy 
portfolio that includes all the best resources and technologies 
available today. We must also plan for the energy developments 
of tomorrow. Nuclear power is a vital component of this 
approach.
    In Port Gibson, Mississippi, we are proud to have Grand 
Gulf Nuclear Station, which opened in July 1985, becoming the 
first and only nuclear power plant to produce electricity in 
Mississippi. Today, Mississippi's Grand Gulf is the largest 
single unit nuclear power plant in the country and the fifth 
largest in the world. It provides Americans with an affordable 
energy resource and is a key component of the State's 
industrial base.
    For plants such as Grand Gulf to have continued viability 
and success, it is vital that NRC exercise its oversight 
responsibilities in a manner that provides certainty for the 
country's nuclear industry. Currently, all final licensing 
decisions for nuclear plants are stayed pending the new waste 
confidence decision. The NRC previously has provided assurances 
that the Commission is on schedule to complete this decision, 
but it recently was announced that the time line may be 
delayed. Perhaps we can hear about that today. I hope the 
Commission recognizes the importance of making this action a 
priority and will address this during question and answer.
    In addition, I have heard from many industry stakeholders 
who are concerned about the cumulative impacts of existing NRC 
regulations, as well as further actions that may turn out to be 
unworkable or financially untenable.
    There is no doubt that the Fukushima disaster in Japan has 
reemphasized NRC's principal role to ensure the safety of U.S. 
nuclear plants and their surrounding communities. In the wake 
of this tragedy, however, we must not lose sight of the fact 
that, absent clear priorities, regulatory actions can divert 
management and staff attention from the most important matter, 
safe and reliable operation.
    It is vital that NRC balance the needs of the industry with 
effective regulatory measures as it continues its important 
work to ensure the safety and success of the U.S. nuclear 
industry.
    So welcome to our witnesses and thank you, Madam Chair.
    Senator Boxer. Senator, thank you.
    So as we previously agreed, we will open it up and the 
chair will have 5 minutes and each commissioner 2 minutes, and 
then we will begin the questioning.

STATEMENT OF HON. ALLISON M. MACFARLANE, CHAIRMAN, U.S. NUCLEAR 
                     REGULATORY COMMISSION

    Ms. Macfarlane. Thank you very much. Good morning, Chairman 
Boxer, Ranking Member Vitter, Ranking Member Sessions, and 
distinguished members of the committee. My colleagues and I 
appreciate the opportunity to appear before you today on behalf 
of the U.S. Nuclear Regulatory Commission.
    The NRC continues to have a full plate of regulatory 
responsibilities, from the operation, construction, and 
decommissioning of reactors to nuclear materials, waste, and 
security. The Commission continues to function effectively and 
collegially. Today I would like to share some of our 
accomplishments and challenges.
    We continue to address lessons learned from the Fukushima 
Daiichi accident and implement appropriate regulatory 
enhancements. Licensees have purchased and staged backup 
equipment at reactor sites, installed supplemental flood 
barriers and pumps to mitigate extensive flooding, and are 
developing plans to install hardened vents and improve spent 
fuel pool instrumentation. Implementation of these and other 
activities will continue throughout this year under NRC 
oversight. We plan to conduct audits at every site to assess 
licensees' implementation efforts and follow up with detailed 
inspections once implementation is complete.
    We are also making progress on several important 
rulemakings. We are carefully ensuring that this work does not 
distract us or the industry from day-to-day nuclear safety 
priorities. The highest priority safety enhancements for the 
operating reactor fleet will be implemented by 2016.
    The NRC has held more than 150 public meetings to get input 
on our Fukushima work and share progress. The NRC receives 
regular reports on the status of the Fukushima site from the 
government of Japan and the Tokyo Electric Power Company as 
they continue their work at the damaged reactor buildings. We 
are also closely coordinating with other U.S. Federal and State 
agencies regarding information about current concentrations of 
radioactive contamination in the Pacific Ocean. Based on the 
best scientific information available, no agency in the United 
States or abroad has identified any evidence of concerns for 
U.S. food and water supply or public health.
    The vast majority of operating reactors in the United 
States are performing well, while a few warrant enhanced 
oversight to ensure their safe and secure operation. Several 
reactors have recently shut down or announced their decision to 
cease operations. As they transition from operating to 
decommissioning, they have 2 years to develop and provide to 
the NRC their decommissioning plans. The NRC will adjust its 
oversight accordingly and ensure these plans meet our 
regulations, keeping the public informed all the time, of 
course.
    The NRC has acted expeditiously to comply with the D.C. 
Circuit Court of Appeals decision directing us to resume review 
of the Yucca Mountain license application. The Commission 
carefully reviewed feedback from participants to the 
adjudicatory proceeding and budget information from the NRC 
staff. Last November and again last week the Commission issued 
orders directing the staff to complete the safety evaluation 
report for the application and to make the licensing support 
network documentation publicly available in the NRC's Adams 
data base, among other things. The project planning and 
building of the technical capability to finish the safety 
evaluation report is nearing completion.
    The NRC also continues to make progress in its waste 
confidence work. The proposed rule and draft generic 
environmental impact statement were available for public 
comment from September through December of last year. We 
conducted 13 public meetings in 10 States to get feedback and 
address questions, and the agency has received more than 33,000 
public comments. The Commission has recently revised its review 
schedule for publication of the rule and GEIS no later than 
October 3rd, 2014, this year. In the interim, the NRC continues 
to review all affected license applications, but we will not 
make final licensing decisions dependent upon the waste 
confidence decision until the court's remand has been fully 
addressed.
    Construction of the new units at Vogtle and V.C. Summer is 
well underway under rigorous NRC inspection. Construction also 
continues at Watts Bar Unit 2, and the staff is working toward 
an operating licensing decision for that plant in December of 
this year. We are also busy preparing for the first design 
certification application of a small modular reactor, which we 
expect to receive later this year.
    The NRC has accomplished a great deal and I am confident 
will continue to meet the challenges ahead. Let me assure you 
safety and security at our operating and licensed facilities 
and materials remains our top priority.
    Thank you for the opportunity to appear before you today. I 
am pleased to answer your questions.
    [The prepared statement of Ms. Macfarlane follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Senator Boxer. Thank you.
    Commissioner Svinicki.

  STATEMENT OF HON. KRISTINE L. SVINICKI, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Ms. Svinicki. Thank you, Chairman Boxer, Ranking Member 
Vitter, Chairman Carper, Ranking Member Sessions, and members 
of the committee for the opportunity to appear before you today 
at this oversight hearing.
    The Commission's chairman, Dr. Allison Macfarlane, and her 
statement on behalf of the Commission has provided a 
comprehensive description of key agency accomplishments and 
challenges in carrying out NRC's important mission of 
protecting public health and safety, and promoting the common 
defense and security of our Nation.
    In a recent communication to all agency employees, the 
NRC's senior career official, the executive director for 
operations, stated the following: ``Our future is likely to be 
dynamic and unpredictable, and the agency will need to remain 
flexible and agile as we respond to new events and external 
pressures. We will need to continually evaluate the work we are 
doing, give careful consideration as how best to use resources, 
and remain focused on safety and security.'' I agree with his 
statement.
    As an organization which embraces the precepts of 
continuous learning, the NRC consistently seeks to improve its 
organizational effectiveness. As a member of the Commission, I 
will continue to work with my Commission colleagues and the NRC 
staff to support the agency's assessment of how we can 
accomplish our work efficiently and effectively, and in light 
of the circumstances and factors we face day to day.
    I am confident that the NRC's dedicated and highly 
professional staff members are up to the task of meeting these 
challenges, as they have proven time and again over the course 
of the agency's history. I thank them for their sustained 
commitment to the agency, to its work, and to each other.
    I appreciate the opportunity to appear today and look 
forward to your questions. Thank you.
    [Ms. Svinicki's responses to questions for the record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. Thank you, commissioner.
    Commissioner Apostolakis.

   STATEMENT OF HON. GEORGE APOSTOLAKIS, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Apostolakis. Chairman Boxer, Ranking Member Vitter, 
Chairman Carper, Ranking Member Sessions, and members of the 
committee, good morning.
    As Chairman Macfarlane stated, we have made a great deal of 
progress in implementing the lessons learned from the Fukushima 
accident. I would like to add that we know a lot more today 
about what it will take to implement the lessons learned than 
we did in 2011, when the Commission set its goal to ``strive to 
complete and implement the lessons learned from the Fukushima 
accident within 5 years, by 2016.''
    It is important not to focus exclusively on the 5-year goal 
to complete the recommendations but, rather, on the entire 
process, which allows us to improve safety significantly by 
implementing the highest priority safety enhancements in a well 
informed and effective manner.
    I emphasize that for the most safety significant 
enhancements we expect to meet the 5-year implementation goal. 
Schedules will extend beyond 2016 in the case of the boiling 
water reactor containment vents because additional requirements 
were imposed after issuance of the initial orders. In another 
case the guidance for addressing seismic hazard reevaluations 
was revised in order to implement safety enhancements and 
actual plant modifications earlier, while allowing licensees 
more time to complete comprehensive site-specific seismic risk 
analysis.
    In my view, these actions are consistent with the original 
intent of the Commission to promptly and effectively implement 
the lessons learned from Fukushima. Thank you.
    [Mr. Apostolakis's responses to questions for the record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you, commissioner.
    Commissioner Magwood.

 STATEMENT OF HON. WILLIAM D. MAGWOOD, IV, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Magwood. Thank you, Chairman Boxer. Good morning to you 
and to Ranking Member Vitter, Chairman Carper, Ranking Member 
Sessions, and members of the subcommittee. We appreciate the 
opportunity to appear before you today to discuss the work of 
our agency.
    Chairman Macfarlane's comments capture the full range of 
activities and, as you can see, it has been an extraordinarily 
busy time for the NRC. I will add briefly that we appreciate 
the encouragement from this committee as we have received to 
the Fukushima Daiichi disaster. Since March 2011, the NRC has 
learned vital lessons from this disaster and taken clear, 
rational action to enhance nuclear safety. We have kept our 
pledge to neither overreact nor underreact to the events in 
Japan, and I believe we have gotten it just about right.
    Our challenge now, both for NRC and its licensees, is to 
absorb the post-Fukushima activities into our normal work and 
prioritize it appropriately. Doing so will require us to 
understand how to manage the preparation for beyond design 
basis events in concert with our ongoing efforts to protect 
against much more likely accident scenarios. Considerable work 
lay ahead, and I am confident that the agency is up to the 
challenge.
    So again I thank you for your engagement during the last 3 
years of hard work. I look forward to answering any questions 
you have.
    [Mr. Magwood's responses to questions for the record 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. Thank you.
    Commissioner Ostendorff.

  STATEMENT OF HON. WILLIAM C. OSTENDORFF, COMMISSIONER, U.S. 
                 NUCLEAR REGULATORY COMMISSION

    Mr. Ostendorff. Chairman Boxer, Ranking Member Vitter, 
Chairman Carper, Ranking Member Sessions, thank you for the 
chance to be before you today.
    After receiving the Fukushima near-term task force 
recommendations back in July 2011, it was clear to myself and 
my colleagues at the table that those recommendations needed to 
be prioritized to focus on those safety significant action 
items, the so-called Tier 1 activities. I personally believe 
that great strives have been made in implementing Tier 1 
activities.
    Chairman Macfarlane has, in depth, in her written and oral 
testimony, covered these issues. I think a lot of progress has 
been made, and I agree with my fellow colleagues that we have 
gotten it, from our perspective, about right.
    I acknowledge there have been a lot of things done. There 
have been things added to the plate since the original near-
term task force report, a lot of discussion about what we 
should do, what we should not do. I would say that the 
Commission decision process has been very thoughtful and 
deliberate in these areas. A great deal of work has been done.
    I appreciate this committee's oversight role and look 
forward to your questions. Thank you.
    [Mr. Ostendorff's responses to questions for the record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Boxer. Thank you. So now each of us will get 10 
minutes of questions.
    Madam Chairman, I have sent the NRC five letters requesting 
documents that relate to the flawed steam generators at San 
Onofre. Just 2 days ago you told me in writing that NRC didn't 
provide me with everything I requested, and you admitted that, 
because of constitutional concerns.
    I have here the Comprehensive Congressional Research 
Service Manual on Congressional Oversight. I have confirmed 
there are two constitutionally based privileges that allow an 
agency to withhold documents from Congress. One is an assertion 
of executive privilege and the other is the exercise of the 
Fifth Amendment right not to incriminate one's self. So which 
one of these are you asserting as you do not give me my 
documents that I have asked for?
    Ms. Macfarlane. Madam Chairman, thank you for the 
opportunity to answer your questions here. We certainly want to 
have a good relationship with the oversight committee----
    Senator Boxer. No, no. I don't have time. I like you; I 
have a good relationship with you. What are you asserting? I 
need these documents. Is it----
    Ms. Macfarlane. We have been trying----
    Senator Boxer [continuing]. Right not to incriminate 
yourself or is it executive privilege? Those are the two that 
are allowed.
    Ms. Macfarlane. We have been working with your staff, with 
the committee staff to provide documents. In fact, we just 
provided another tranche of documents yesterday and the day 
before to the staff that was responsive to your request.
    Senator Boxer. So you will give me all of the documents I 
have requested?
    Ms. Macfarlane. If we have not been responsive to your 
request, as you go through the documents that we just provided, 
we of course would like to continue to work with the committee 
to see how we can accommodate your request.
    Senator Boxer. No, no, I don't want you to work with the 
committee. You have promised the ranking member and myself that 
whenever we ask for documents, you get them to us. You have 
also committed that to everyone else. So I am just saying to 
you if we do not have the documents that we request rightfully 
and legally, you better assert why you are withholding them. 
Either it is incrimination or it is executive privilege. And 
you have talked about separation of powers. We will share with 
your legal people. We also heard other things from your counsel 
that deal with other reasons which just don't make any sense, 
so we will continue to work with you.
    We have had eight oversight hearings. I am glad that my 
colleagues want more, because I want more as well; and that 
leads to an issue of your travel, all of your travel. Now, we 
all travel on business because sometimes it is extremely 
important to do so. But I have looked over how many trips each 
of you have taken in your time. Commissioner Svinicki, 17 
international trips to 23 countries; Commissioner Magwood, 127 
days on international travel since 2010.
    And I know that Chairman Macfarlane has requested that all 
five commissioners be in town at least 1 week each month in 
order to ensure that the Commission can meet to conduct its 
business and be available to testify before Congress. So I am 
asking if each of you would agree to her request, starting with 
Ms. Svinicki.
    Ms. Svinicki. Yes, I think we work very collegially on 
scheduling matters and I----
    Senator Boxer. I am asking if you agree with her request, 
that you be in town 1 week a month, all of you together.
    Ms. Svinicki. Yes. I don't think there is any month where I 
haven't been in town 1 week.
    Mr. Apostolakis. Yes.
    Senator Boxer. Thank you.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Senator Boxer. That is good, because it will make it easier 
on us, because some of my colleagues are complaining that we 
don't have enough oversight. We are going to do more oversight.
    Now, the NRC travel records I received are marked ``non-
public,'' which is mystifying to me since there is no good 
reason to keep that information secret. The taxpayers are 
paying for it. Now, when we travel, we get heat sometimes. We 
have to show where we go and what it costs, et cetera. Some of 
you publicly disclose some of your travel and your meetings, 
but most of you don't. So, yes or no, will each of you commit 
to this committee to making all of your travel and meetings 
publicly available going forward?
    Ms. Svinicki. I already do make my schedule publicly 
available and my travel publicly available.
    Senator Boxer. OK. Yes. Will you do that?
    Ms. Svinicki. Yes.
    Mr. Apostolakis. I think I am already doing it.
    Senator Boxer. You will do it.
    Mr. Magwood. Yes, I currently do that.
    Mr. Ostendorff. I currently make my meetings public.
    Senator Boxer. OK. Well, my understanding is, Commissioner 
Magwood, you haven't in the past. So we look forward to seeing 
that in the future.
    I am going to be introducing legislation that will ensure 
that the Commission and staff are more open about their travel.
    Chairman Macfarlane, I think we all agree NRC must be 
independent, it is essential, and I am concerned that your 
independence may have been compromised as you considered a 
request by SoCal Edison to restart the San Onofre nuclear 
reactor. That reactor shut down in early 2012 when its steam 
generators were found to be in very bad shape. The NRC properly 
requested considerable amount of technical information from the 
licensee in order to inform its decision on whether the reactor 
was safe. You were right to do that. But documents I have 
received--at least I have received some--indicate the NRC staff 
was preparing a document declaring that the restart of the 
reactor was safe months before it received all of the responses 
to the technical questions. So how can we have confidence in 
NRC's independence when it was preparing to grant industry's 
request months before it received the necessary safety related 
information?
    Ms. Macfarlane. During the investigation of the steam 
generator failure at the San Onofre Nuclear Generating Station, 
there were many concurrent issues that were working at the 
Nuclear Regulatory Commission. It was a very complicated 
proceeding and there was an active investigation----
    Senator Boxer. Well, I am just asking a specific question. 
Documents show that you were ready to allow that plant to 
startup before all the technical studies were done and you had 
something drafted. I mean, I am just concerned. And I guess 
what I am getting at, you closed that reactor down, it is gone, 
thank God, because of the problem. Well, the company actually 
did it, you didn't. But the bottom line is what I want to make 
sure of, in the future, if there is an investigation going on, 
you shouldn't reopen. So I guess my question is do you think it 
is right to reopen a facility while an investigation is still 
going on? You don't really know what the problem is.
    Ms. Macfarlane. It depends on the particular situation. 
Unfortunately, I can't give you a specific answer because it 
depends on the particular situation, and in some situations our 
regulations allow for a plant to restart while an investigation 
continues.
    Senator Boxer. OK. Fair enough. So I am going to just 
continue to work on this in my investigation.
    Chairman Macfarlane, are these statements accurate? One, 
NRC's former senior resident inspector for Diablo Canyon filed 
a formal dissent, saying that Diablo was operating outside the 
seismic requirements of its license. Is that accurate?
    Ms. Macfarlane. I believe that the senior resident, in 
years past, did file nonconcurrence.
    Senator Boxer. You believe that is correct, then.
    Ms. Macfarlane. I believe that is correct.
    Senator Boxer. Second, he also said that PG&E's own 
analysis showed that the newly discovered faults could cause 
ground shaking that was 70 percent stronger than the NRC 
license allows. Is that correct?
    Ms. Macfarlane. I would have to look, I am not----
    Senator Boxer. Would you get back to me on that and let me 
know?
    Ms. Macfarlane. Yes. I can take that for the record.
    Senator Boxer. OK. I have a number of other questions I 
want to ask about that for the record, so I will ask all those.
    Madam Chairman, recently the NRC voted to delay a 
recommendation by its own staff that two people be present 
whenever highly enriched uranium or plutonium were being 
handled in order to protect against an insider threat. The 
Department of Energy has had a rule like that in place for 
decades, and in 2011 the Department of Homeland Security warned 
that violent extremists have obtained insider positions at 
utilities and that ``insiders and their actions pose a 
significant threat to the infrastructure and information 
systems of U.S. facilities.''
    So I would like you to answer do you support the quick 
adoption of the two-person security rule that your own staff 
recommended?
    Ms. Macfarlane. The Commission decided not to go forward 
with that at this time.
    Senator Boxer. Why?
    Ms. Macfarlane. It was a Commission decision.
    Senator Boxer. Why? What was the vote?
    Ms. Macfarlane. I am not sure. I don't recall what the vote 
was.
    Senator Boxer. Does anyone recall what the vote was not to 
go forward with this? None of you remember? Yes, sir.
    Mr. Ostendorff. Madam Chair, the specific issue was that 
the staff had not completed a cost-benefit analysis to assess 
whether or not the two-person rule was appropriate.
    Senator Boxer. Well, could I just say----
    Senator Sanders. We don't have an answer to what the vote 
was. Could you tell me what the vote was?
    Mr. Ostendorff. I don't recall what the vote was. I voted--
--
    Senator Sanders. Does anybody? Five people is not a lot of 
people. What was the vote, 3 to 2, 4 to 1?
    Mr. Ostendorff. I voted against the rule because of the 
two-person piece.
    Mr. Sanders. OK.
    Senator Boxer. How did you vote on it?
    Mr. Magwood. As I recall, I voted against it.
    Senator Boxer. How did you vote on it?
    Mr. Apostolakis. I can't remember.
    Senator Boxer. How did you vote?
    Ms. Svinicki. I believe I voted against it.
    Senator Boxer. How did you vote?
    Ms. Macfarlane. I don't recall right now either.
    Senator Boxer. I am completely flummoxed. This is a big and 
important issue, and this business of a cost-benefit analysis 
when you are dealing with a potential terror attack and a 
takeover of a nuclear plant? You have got to be kidding.
    Now, let me say, you have never done a cost-benefit 
analysis for these sorts of materials tracking in the past, and 
you found the costs were minimal, less than a million a year; 
and I would say the benefit of preventing someone from stealing 
nuclear weapons materials is pretty much priceless. And I would 
suggest if you don't move and reverse yourselves on this, there 
will be legislation.
    I thank you and I turn to my colleague.
    Senator Vitter. You know, I think oftentimes in Government, 
and in Washington in particular, we become very process-
oriented and lose the forest for the trees. So I am just going 
to suggest a question, not to be answered here, but suggest a 
question for all of us to think about. Senator Sessions went 
through the rash of shutdowns very recently: Kewaunee in 
Wisconsin; Vermont Yankee; Crystal River Unit 3 in Florida; 
SONG 2 and 3 in California. Duke Energy announced it wouldn't 
move forward with Levy County, Florida. TVA announced that it 
would scale back work at Bellefonte.
    Now, if any of us as individuals think most or all of those 
sites were unsafe or not safe enough, well, that is a good 
result. But if we think, as I do, that most, probably all of 
those sites were safe, were safe enough, that is a fundamental 
failure on the part of all of us; NRC, Congress, the whole 
establishment. So I just want to try to have us focus on the 
forest, and not lose sight of it.
    Let me ask some specific questions about Yucca Mountain. 
First of all, Madam Chair, at your confirmation hearing you 
stated very clearly, ``To be effective, a regulatory body must 
be independent from economic, policy, and political interest.'' 
However, in the majority opinion on Yucca Mountain, Judge 
Cavanaugh stated that, ``The Commission's political 
prognostication may or may not ultimately prove to be correct. 
Regardless, an agency may not rely on political guesswork about 
future congressional appropriations as a basis for violating 
existing legal mandates.'' And he didn't consider it a close 
call.
    Why did it take you a court decision to move forward with 
that legal mandate? Why was not that political prognostication 
and political guesswork about congressional appropriations not 
being independent from political interest and considerations?
    Ms. Macfarlane. Thanks for the question, Senator. I was not 
on the Commission when those decisions were made, so I will not 
try to second guess the decisions that were made in the past. 
What I can assure you is that we are fully complying with the 
court's decision and we are moving forward, continuing with the 
proceedings, and we are moving forward promptly on this.
    Senator Vitter. OK, well, let's move to that. The 
Commission has repeatedly acknowledged in its order, including 
this week, that it does not have adequate resources to fully 
complete the Yucca review and issue a decision. Is that 
correct?
    Ms. Macfarlane. To fully complete the licensing decision?
    Senator Vitter. Yes, to fully complete the review----
    Ms. Macfarlane. We do not have adequate resources.
    Senator Vitter [continuing]. And issue a decision pursuant 
to the review.
    Ms. Macfarlane. That is correct.
    Senator Vitter. OK, so what action are you taking to solve 
that problem? For instance, have you proposed a supplemental 
budget to OMB?
    Ms. Macfarlane. No, we have not.
    Senator Vitter. Have you taken any other action to solve 
that problem?
    Ms. Macfarlane. We are complying with the court's decision. 
They told us to use the existing funds that we had, and we are 
going forward using those funds.
    Senator Vitter. Let me ask you about existing resources. As 
was pointed out by other members a few minutes ago, NRC staff 
has increased about 34 percent at least since 2000. Meanwhile, 
the expected increase in workload has never materialized. Quite 
the opposite. So huge increase in staff, no increase in 
workload in terms of applications for licenses, et cetera. Are 
you moving any of that staff to solve this resource problem?
    Ms. Macfarlane. You know, I would like to actually submit 
something for the record, if that is OK. I have a little chart 
here which shows our budget from 2003 to 2013. And I know it is 
a bit of an eye test for you, but it shows it in actual dollars 
and constant dollars. And if you look at the constant dollar 
chart, which is in red, our current budget is the lowest it has 
been since 2007, I believe. And in that time period since 2007 
our workload has increased significantly. We have been dealing 
with Yucca Mountain, we have been dealing with waste 
confidence, we have been dealing with Fukushima, in addition to 
all the other work that we are doing, the new construction 
work, all of that work. So we are actually now doing more with 
less.
    Senator Vitter. Well, there are going to be a lot of folks 
who disagree with you and that goes back to my original 
statement. If you become completely process oriented, I am sure 
you are dealing with more because you have created that 
process. If you step back, I think you come to the opposite 
conclusion. And, as you know, those resources were given to you 
to meet an expected increase in license application, an 
increase in sites, increase in nuclear reactors. None of that 
has happened. Yes, regulations have multiplied almost 
exponentially, but that fundamental growth of the industry has 
not happened.
    Let me re-ask my question about people, because you will 
agree that at least since 2000 there has been a huge increase 
in bodies at the NRC, correct?
    Ms. Macfarlane. Since 2000? We hit our maximum a couple 
years ago, and we have decreased in size since 2010, and we now 
have around 3700 employees.
    Senator Vitter. OK. Well, not that long ago it was 2900, so 
there has been a big increase over that time period. Are you 
moving any of those folks to solve the Yucca resources?
    Ms. Macfarlane. Oh, absolutely. We are currently about----
    Senator Vitter. How many of those folks have been moved 
recently from something else to Yucca?
    Ms. Macfarlane. Well, I can assure you that we are 
currently about 80 percent staffed up for dealing with the 
safety evaluation reports, so we are going to be ready to go on 
those very soon.
    Senator Vitter. But again I was talking about following the 
whole process through. You have said several times you don't 
have adequate resources, so I am talking about that broader 
challenge. How do you propose to solve that problem?
    Ms. Macfarlane. I think right now that the budget 
appropriations have been settled. We are in a reasonable 
position going forward. I would ask my colleagues to weigh in, 
if they would like to.
    Ms. Svinicki. Senator, if I could just add to the 
chairman's answer.
    Senator Vitter. Sure.
    Ms. Svinicki. In terms of reallocating appropriated money 
to Yucca Mountain related activities, there are prohibitions on 
our doing that. We would have to seek a congressional 
reprogramming because activities used for Yucca Mountain, I 
believe, must be appropriated from the Nuclear Waste Fund, so 
our other appropriated moneys would have to receive a 
congressional reprogramming.
    Senator Vitter. Are you all going to make that request?
    Ms. Macfarlane. This will be a Commission decision, so it 
is something we will have to decide as a body.
    Senator Vitter. Are you considering making that request? 
Has there been any discussion?
    Ms. Macfarlane. There has been some discussion. We will 
entertain this as it comes up in future budgets.
    Senator Vitter. Yes, sir.
    Mr. Ostendorff. Senator, if I may add to Commissioner 
Svinicki and Chairman Macfarlane's comments. Glenn Tracy, who 
directs our Office of New Reactors, a New Orleans native, has 
moved a number of his personnel over the last 2 years, because 
of the drop-back in licensing of new reactors, over to help 
with Fukushima action items and the seismic and flooding area. 
I think Mark Sartorius, our executive director for operations, 
who is back here in the back row, has taken a lot of steps to 
ensure the appropriate fiscally prudent use of these resources.
    Senator Vitter. Well, I hope you can understand my general 
concern, which is it took a court order to have the NRC follow 
a clear legal mandate, and even as that is happening there are 
all sorts of statements, well, we don't have the decisions to 
follow through and get everything done down the line. I realize 
we are not talking about the immediate work at hand, but the 
full review and decision. So why don't we start thinking about 
how we solve that problem? I don't hear any request for 
reprogramming, any significant movement of individuals, even 
though there has been a major increase over a decade, any 
proposal to OMB. So can you all discuss how we solve that 
problem over time and present to us and Congress and everyone 
appropriate your plan for solving that problem, not just 
identifying the problem or not just pointing to the problem?
    Thank you. That is all I have.
    Senator Boxer. Thank you, Senator.
    Senator Carper.
    Senator Carper. Thanks, Madam Chair.
    I want to go back to the issue raised by my chair, and that 
is the two-person rule. Let me just note for the record we have 
heard around here hundreds of times, thousands of times, and 
people ask me from time to time how did you vote on such-and-
such. Frankly, I don't always remember, so I can understand how 
you may not remember how you voted. But, for the record, let us 
know how you voted. The other thing, for the record, let us 
know why you voted that way.
    In my old job in the Navy, the Navy PT aircraft world, as 
Commissioner Ostendorff knows, we handled, from time to time, 
nuclear weapons, and we had an aircraft rule: when using 
nuclear [unclear] bombs, you want to arm them or whatever, two 
people involved in that; and that was for a good reason. So 
just let us know what is your rationale for doing this. If 
there is a good reason for it, we would like to know it; and if 
ultimately there is not a good reason for it, we would like to 
know that too, and we would like to know sooner rather than 
later. So if we can put that out there, that would be great.
    Another thing, just clarify for the record. You all do a 
fair amount of travel. We do a fair amount of travel. I am the 
chairman of Homeland Security Committee. I need to do more 
international travel, and I am more cognizant of that and am 
going to try to do a better job this year, now that I have my 
first year of my chairmanship behind me. But you all travel a 
lot. Some of you travel a lot. The chairman doesn't travel that 
much; she has not been in the Commission for as long, which may 
be the explanation. Some of you travel a lot to Japan. That is 
understandable. Some of you travel to places where it is less 
clear. And I would just ask, in terms of taxpayers paying for 
your travel, my understanding is that the lion's share of the 
expenditures at the NRC, and I presume it is travel as well, 
come not from taxpayer dollars, but from fees collected from 
utilities and so forth. Can you all give me the breakdown of 
that? What is it, 90/10? What is it?
    Ms. Macfarlane. Yes, it is 90 percent. We are a 90 percent 
fee recoverable agency.
    Senator Carper. It sounds like you are fairly transparent 
on the travel that you do. Just make sure. We get criticized 
for foreign travel, and a lot of cases it is stuff that is 
justified. I usually go to places where we have Americans 
getting shot at, killed at, and so forth, and it is kind of 
hard to criticize that. But just make sure that you continue to 
be transparent; explain why it is important. I always like to 
think what if the trip that I take is going to be on the front 
page of the newspaper, banner headlines, and I have to defend 
it. Just kind of take that approach to it and make sure that 
you are using good common sense.
    I want to turn to Sandy. Sandy visited my State a little 
over a year ago, our region of the country, did a lot of 
damage, and I think if climate change stuff is real, I think it 
is, we are going to see more Sandys in the future that are 
going to come to other places around our country and around our 
world. What were our lessons? What were our lessons learned 
from Sandy? What could we have done better not just from our 
nuclear power plants, but within the Federal, State, and local 
governments?
    Ms. Macfarlane. What were the lessons learned?
    Senator Carper. Yes.
    Ms. Macfarlane. Well, certainly we were actually very 
impressed with our licensees' response to Sandy; they were all 
on alert, they were all prepared. We, ourselves, were prepared; 
we had extra inspectors at the facilities ready and watching. 
So we were all ready to manage, and the plants managed very 
well. The only plant that had any kind of incident during that 
time was Oyster Creek in New Jersey, which did have high water 
levels, but it didn't reach the design basis and didn't affect 
the plant.
    Senator Carper. Other commissioners, what are some things 
we learned from Sandy that we are acting on now, we could have 
been better, not just within the NRC, the plants themselves, 
maybe State and local government in their response? Anybody?
    Mr. Ostendorff. Senator, thanks for the question. We had a 
Commission meeting earlier this month, in public, from 
Rockville, and we had operation supervisor from Salem Hope 
Creek there, and I think the licensee learned some things, we 
learned some things. The two comments I had were regional 
coordination and how the licensee and the NRC communicate with 
FEMA. Then, onsite there were some areas identified to enhance 
the operating procedures in the event of a flood.
    Senator Carper. OK. Anything the NRC is doing--and this 
could be for the chair or the other members as well, but 
anything that the NRC is doing to better ensure, to better 
ensure that our nuclear plants and the communities around them 
are better prepared for storms like this in the future?
    Ms. Macfarlane. Well, we asked all our plants to reevaluate 
the flooding hazard at the plants, and we are getting their 
flood hazard reevaluations in. We got a big tranche in last 
year; we are expecting another this year, to keep up with the 
potential for increases in flood hazard from climate change or 
what have you. So we are on top of that and we are going to be 
analyzing other aspects of weather and natural disaster events, 
as we work through the Fukushima Tier 3 activities.
    Senator Carper. Let's go across the world to Fukushima this 
morning. How are they doing there in their recovery? Just 
somebody give us--30,000 foot. How are they doing in their 
recovery from the terrible disasters that they were visited by?
    Ms. Macfarlane. How are we doing?
    Senator Carper. No, no, how are they doing.
    Ms. Macfarlane. At Fukushima?
    Senator Carper. Yes. They are like a sister State to us in 
Delaware, so we care about it.
    Ms. Macfarlane. They are working very hard. It is a very 
difficult situation and it is an unprecedented situation, so 
they are really having to make things up as they go, in other 
words. There is a constant issue of radiation leakage into 
groundwater. They have a lot of water issues there and they are 
working very hard to minimize it. They really literally, I 
think, are working around the clock. But new problems will crop 
up, and as Commissioner Apostolakis noted, we are learning more 
all the time now about the accident, about what happened, and 
that is giving us more insight into our own operations here.
    Senator Carper. All right. Some of you travel extensively 
to Japan. Anybody else want to just give us a quick 30 seconds 
or so? How are they doing over there in their recovery?
    Mr. Magwood. Appreciate the question, Senator. There has 
been some very important progress. They have begun, for 
example, to begin relocating some of the spent fuel from the 
damage in the fuel pools, and that is a very important 
milestone that the people in Japan were watching very closely. 
I think the biggest challenge they have in Japan, quite 
frankly, is the continued skepticism that the public has about 
the ability of the government and the regulators to speak 
clearly to requirements and making decisions, and they still 
have those doubts; and I think that is a big challenge for our 
colleagues at the Nuclear Regulatory Authority as they try to 
make good decisions. I think they are doing a very good job so 
far, but that public skepticism is still very high in Japan. It 
is a big challenge for them.
    Senator Carper. OK. Sticking with Fukushima for another 
minute or so, in response to the Fukushima event, the 
Commission, I know, continues to pursue a long list of lessons 
learned from the accident. That is good. The NRC has several 
deadlines to meet in the next couple of years, I believe, to 
meet the time line established in March of, I think it was 
2012. Are there any issues that have been a lot more difficult 
than you might have expected? If so, what have they been?
    Ms. Macfarlane. Issues that have made achieving the 
activities?
    Senator Carper. Are there any issues that have been more 
difficult to address than expected?
    Ms. Macfarlane. I would say at this moment not directly, 
no. We are certainly learning as we go and shifting things 
around a little bit as we go. You know, we issued an order, for 
example, on hardened vents to make them more secure. Last year 
the Commission revisited this issue and said, you know, we 
really need to make sure that these vents are hardened, it is 
possible to open then in an accident scenario, but these vents 
have to be able to withstand the conditions of an accident; the 
temperature, pressure, intense radiation conditions of an 
accident. So we revised the order and reissued it so that these 
vents will be capable of being operated under those conditions 
as well. So we are doing that as we go along.
    Senator Carper. All right.
    Commissioner Apostolakis, it was last September, along with 
Senator Sessions and Senator Barrasso and Cardin, we sent a 
letter to the Commission encouraging the NRC to streamline the 
licensing process for dry cast storage. Since we sent our 
letter, we understand that the NRC has implemented a new 
expedited process for approving dry cast storage designs, and I 
was wondering if you might elaborate for us on that process, if 
there was any feedback that you have been receiving from the 
industry, please. Commissioner Apostolakis, if you would, 
please. Do you have some feedback that you have received from 
the industry? How are we doing here?
    Mr. Apostolakis. I have not heard any complaints from the 
industry. I think we are doing fine, as far as I know.
    Senator Carper. Anybody else want to respond to my 
question? No? All right.
    Chairman Macfarlane, can you give us an update on where the 
NRC is on waste confidence, please?
    Ms. Macfarlane. Yes. As I said, we have finished our public 
comment period of getting public comments on the waste 
confidence rule and the generic environmental impact statement. 
We are now in the process of going through those over 33,000 
public comments and addressing them, and we will be about, 
right now the estimate is 1 month over time. So we will be done 
by the beginning of October.
    Senator Carper. Madam Chair, our colleague, Senator 
Sanders, raises interesting questions. I put my old Governor 
hat on, about the appropriate role for State and local 
governments. I have a clear interest in the decommissioning of 
these facilities around our country, including Vermont and 
other places. And I don't know that we need a law to do that, I 
don't know if we need regulations to make sure that they have 
the ability to play an appropriate role. There is clearly an 
interest and a concern. I would have it as well. And let's see 
if we can't use some common sense to make possible for the 
State and local governments to have some involvement. We will 
follow up, Senator Sessions and I will follow up with you, some 
further discussions, and involve Senator Sanders if he would 
like to be part of that. Thank you.
    Senator Boxer. Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman. I have to 
confess, I was hoping the Senator Sessions would make it back, 
because I always do so much better when I ask my questions 
after Senator Sanders has asked his questions, and you will 
find out in a minute.
    [Laughter.]
    Senator Inhofe. Let me ask this also. I really think, and I 
have been here for quite a while and I used to chair this 
committee a long time, and I think we have an excellent 
Commission. I mean, all five of you, I just appreciate your 
service so much, and it is well balanced.
    I noticed, Mr. Apostolakis, that you are going to be the 
next one that would be coming up for renomination, and I would 
hope that you would continue on and, if you are inclined to do 
so, I would appreciate your service to continue.
    In my opening statement, I am going to repeat something 
that I said there because it is kind of following up a little 
bit on what Senator Vitter was talking about, but it may be in 
a different way. And I remember it so well because at that time 
I chaired this committee; this was 2003. The NRC asked Congress 
for the bigger budget to build new buildings, add all these 
employees. And, by the way, I have some specific numbers.
    Madam Chair, you weren't here at that time, so you are off 
the hook, partially.
    But they wanted to do this so they could add expected 
approval of four design certifications for new reactor designs 
and 17 of the COLAs; not the normal COLAs we talk about, the 
construction and operating license applications. So that was 4 
and 17.
    Now, that was actually, at that time, in discussing this, 
we were looking in terms--because I went back and checked our 
notes--that we would have to anticipate having that increase 
workload in 3 to 5 years. Now, that has been a long time, and 
now 10 years later we only have approved one design 
certification and two COLAs. So it has gone from an expectation 
of 4 design certifications and 17 COLAs down only 1 and 2.
    Now, I say this, and I would like to get a response from 
each member, maybe start with, well, since you weren't here at 
that time, let's start with Ms. Svinicki. Tell me how that can 
happen. Why did that happen?
    Ms. Svinicki. Well, I would note, Senator, some statistics 
I found, just very quickly here, is that NRC does have under 
review right now three design certifications and--the chairman 
is helping me out.
    Senator Inhofe. I am not talking about under review. We 
said at that time that we would have those in 3 to 5 years, not 
be reviewing them 10 years later.
    Ms. Svinicki. As some members of the committee have noted 
in their opening statements, some of the larger economic 
circumstances for the utilities that were interested in 
building these new reactors have changed somewhat 
significantly. As a result, some have suspended or withdrawn 
their applications, but some have decreased the pace at which 
they are supporting the review of their application, by which I 
mean when we generate questions, they have indicated that they 
are content with a slower pace to our review. So some of the 
schedules have become protracted for that reason.
    Senator Inhofe. OK. Because of timing, I am going to--if 
there is time, I will come back and ask the same question of 
the other three, but I want to get another thing in here in the 
meantime, and that is that the NRC near-term task force in two 
Japanese reports on Fukushima determined that the disaster was 
one that we call made in Japan; in other words, the cultural 
differences, the gaps that are out there. It would seem that we 
need to have that determined. And we talked about this way back 
in 2011, when it happened. We said there are differences here, 
there are cultural differences here.
    So I would ask Chairman Macfarlane has the NRC conducted a 
thorough gap analysis between the Japanese and United States 
systems and regulations to compare and contrast the complete 
picture comparing U.S. and Japanese models to more closely and 
wisely cost-effectively suggest policy changes? Have we made 
that kind of a study?
    Ms. Macfarlane. Yes, we did a comparative study of the U.S. 
and Japanese regulatory systems, but it wasn't comprehensive.
    Senator Inhofe. It was not comprehensive.
    Ms. Macfarlane. No, it wasn't completely comprehensive.
    Senator Inhofe. It didn't include all the cultural----
    Ms. Macfarlane. In part because to get into the weeds of 
comparing the U.S. and Japanese, we would have to translate all 
of their regulations to fully understand the differences. But 
let me just jump to the conclusions of the study that we did. 
We found some similarities and we found some differences. But 
the bottom line was that there was no evidence that a 
Fukushima-type accident would have been completely avoided in 
the U.S.
    Senator Inhofe. OK.
    Ms. Macfarlane. And what I have learned from the fantastic 
staff at the NRC is that one of the most important things for a 
regulator is operating experience. And the operating experience 
that we gained during the Fukushima accident is significant. We 
did not, prior to the Fukushima accident, expect or analyze for 
more than one reactor at a site to have an accident.
    Senator Inhofe. OK.
    Ms. Macfarlane. So that was not planned for. We had not 
prepared properly for extended long-term station blackout; no 
electricity, no backup sources. And we are now addressing that. 
And do you know what? Every country with a significant nuclear 
program around the world came to the same conclusions and they 
are doing the same thing.
    Senator Inhofe. OK, what I would like to have is a copy of 
this report that you have.
    Ms. Macfarlane. Certainly. It is publicly available.
    Senator Inhofe. Even though you state that it is not as 
complete as we would all probably want. But I want to compare 
it with the notes that we took 3 years ago on the changes. For 
example, you have to actually go get permission in advance to 
do things that we, through the NRC, empower those people on the 
site to do; and there are so many changes like that.
    I would like to ask, Captain Ostendorff, would you think it 
is important for us to have the benefit of a complete report, 
even more complete than the one we have right now?
    Mr. Ostendorff. Senator, I appreciate the question. I agree 
with Chairman Macfarlane's response, and I know that this has 
been some discussion over the last couple of years with this 
committee. I think we have thoughtfully taken aboard the 
Fukushima lessons learned, including the scope of Japanese 
regulations in place at the time for those areas that were 
important.
    Senator Inhofe. OK. Well, we would just like to have the 
benefit of everything. While we are talking about getting 
reports, Madam Chairman, I know we have had enough funding to 
complete the Yucca Mountain report, and I will be watching real 
closely to see--do you have a date that we would have that 
report?
    Ms. Macfarlane. I think it is about a year from January, 
but I need to get back to you on that, so let me take that for 
the record.
    Senator Inhofe. OK. When you get back to me, and for the 
record I would like to have you give me a date that we should 
anticipate receiving it, because I think, to me, anyway, that 
is very important.
    Now, in the remaining time, I asked the question, in 
opening up, how we can--first of all, increasing the staff. It 
is my information that we have 900 more employees right now 
than we had in 2004. Now, I don't know whether that agrees with 
your chart or not, but what I would like to have you do is take 
your chart, since this action took place in 2003, extend it to 
the 3 years prior to 2003 so we can get a better look on how 
much of that came from the increased activity that we 
anticipated were going to happen in COLAs and design 
certification. So I would ask that you take the chart, go back 
to, instead of starting at 2003, start at 2000.
    Ms. Macfarlane. Certainly. We can do that for you.
    Senator Inhofe. OK.
    Now, the rest of you, in terms of the increase from 
anticipating 4 design certifications and 17 COLAs, and only 
getting 1 design certification and 2 COLAs in that time, would 
the other three of you who didn't have a chance to respond to 
that tell me what I am overlooking here?
    Mr. Apostolakis. Well, on the face of it, I must agree it 
doesn't look good.
    Senator Inhofe. OK, that is a good response.
    How about you, Mr. Magwood?
    Mr. Magwood. Senator, I think that when you look at what 
actually has taken place over the last several years, you find 
that the applicants and the licensees have actually struggled 
somewhat when it comes to answering some of the technical 
questions.
    Senator Inhofe. Yes, but somewhat is a little bit different 
than the gap that I am talking about.
    Mr. Magwood. There has been significant back and forth with 
the applicants over technical issues, and it has taken 
significantly longer than I think anyone thought. But as 
Commissioner Svinicki pointed out, there are still reviews 
underway as we speak.
    Senator Inhofe. I am almost out of time.
    Mr. Ostendorff. Also, real quick, Senator, I will give you 
two examples on the design certifications. Mitsubishi had a 
design certification submitted to the NRC for what is called 
the APWR. They, the submitting group, backed off their 
resources to focus them back in Japan.
    Second one, ARIVA had an application in for the EPR. There 
have been problems in the international community with digital 
alliance----
    Senator Inhofe. My time is up. I will tee up one more thing 
for my good friend, Senator Sanders----
    Senator Boxer. We have a vote at 11:15, so I am afraid 
people aren't going to get a chance.
    Senator Inhofe. No, just one sentence. Out of your time, 
that is good. All right, that is good.
    Do you think it was unfair for me to assert that perhaps we 
are trying to regulate the nuclear energy out of business, just 
like we are trying to regulate the fossil fuel business out of 
business? That is it.
    Senator Boxer. Thank you for that provocative thought.
    With that, we will turn to Senator Sanders.
    Senator Sanders. Let me begin. Senator Inhofe and I 
disagree every now and then, despite being very good friends, 
but I share your line of questioning about the growth of 
employees at the NRC. And as Commissioner Apostolakis said, it 
doesn't look so good on the surface, and I would agree with 
you. That is something we want to pursue together.
    The other issue I want to back to the point that I made 
earlier about the role of State government in the 
decommissioning process, but before I do that I want to get to 
this voting issue, which concerns me. It is actually an issue 
that has been raised for a number of years. Every person up 
here as United States Senators has to cast some very difficult 
and controversial votes, and occasionally those votes are 
distorted and put on to 30-second ads. That is our reality; we 
live with that.
    Is there any reason why every vote that you cast should not 
be made public? Right down the line. Madam Chair.
    Ms. Macfarlane. I think there are, when we vote----
    Senator Sanders. Very briefly, please. Maybe yes or no.
    Ms. Macfarlane. When we vote in our adjudicatory role. 
Those votes I don't believe are public.
    Senator Sanders. My point is just give me an answer. We 
cast votes about whether we go to vote or not, of some 
consequence. They are made public. Any reason why your votes 
should not be made public? You are saying yes, you think there 
are some occasions when they should not. I hear that.
    Ms. Macfarlane. Yes.
    Senator Sanders. Ms. Svinicki.
    Ms. Svinicki. I agree with that and would add that if there 
are security-related matters, those are not made public as 
well.
    Senator Sanders. Well, that is a big word, security. We can 
hide a whole lot under security.
    Mr. Apostolakis.
    Mr. Apostolakis. I agree with my colleagues.
    Senator Sanders. All right.
    Mr. Magwood.
    Mr. Magwood. The vast majority of our votes are public.
    Senator Sanders. Mr. Ostendorff.
    Mr. Ostendorff. Senator Sanders, every single one of our 
Fukushima-related votes that come to us sticky paper, when the 
voting process is complete, those votes are all made public.
    Senator Sanders. Well, you know, I happen to think that 
unless there is some extraordinary circumstance, votes should 
be made public. That is just my own view and that is an issue I 
want to pursue. I think Ranking Member Vitter raised the issue 
of a ``rash'' of nuclear shutdowns in this country. The truth 
of the matter is there are a whole lot of people who are 
concerned about nuclear power. We are concerned about safety 
aspects of nuclear power; we are concerned about the cost of 
the production of nuclear power. You know, many of my very 
conservative friends here say over and over again they want the 
Government to deregulate; they want the Government out of the 
private sector. We hear that every day. The truth of the matter 
is if we did not have legislation like Price-Anderson, which is 
not a well known piece of law--what Price-Anderson is about, 
if, God forbid, there were ever a nuclear disaster of 
consequence, a Fukushima in the United States, I am not sure 
that everybody is aware the taxpayers of this country would be 
called upon to come up with who knows, tens and tens and tens 
of billions of dollars to deal with the cost incurred in that 
disaster.
    Am I right, Ms. Macfarlane?
    Ms. Macfarlane. You are correct.
    Senator Sanders. So I would, in the goal of getting the 
Government out of the private sector and overregulating, I 
would wonder if any of my conservative friends would cosponsor 
with me legislation to repeal Price-Anderson so we can leave 
the nuclear power industry alone and not get involved with 
Government. And I look forward to working with Senator Vitter 
or Senator Inhofe getting the Government out of the nuclear 
power industry. Any volunteers at this point?
    Senator Inhofe. [Remarks made off microphone.]
    Senator Sanders. OK. There we go.
    Senator Vitter. Bernie, I am not going to volunteer. I just 
want to underscore exactly what I said. I listed all those 
shutdowns and I said if you believe most or all of these sites 
are not safe or not safe enough, then that is a good result. 
But if you don't, I think the vast majority of informed folks 
do not, then I think it is a failure on our collective part.
    Senator Sanders. Well, David, my only point here is----
    Senator Boxer. We can't do too many more back and forths, 
because I am so nervous people aren't going to get a chance. It 
is not fair.
    Senator Sanders. OK. I would just say----
    Senator Boxer. But finish your time.
    Senator Sanders. David, I have heard all of your given 
speeches, we have heard speech after speech about the 
Government being involved in the private sector, not letting 
free enterprise do its thing, and here you have a situation. 
Without Price-Anderson, it is quite likely the nuclear industry 
in America would collapse tomorrow. And you know why? Because 
Wall Street, whose job is to make money, and the insurance 
company, whose job is to make money, they don't think insuring 
nuclear power plants is a pretty profitable enterprise, and 
they won't do it. So I look forward to working--maybe Jim and I 
can work together on this--getting the Government out of the 
nuclear power industry.
    All right, that is an aside.
    I also wanted to mention in terms of nuclear power, I think 
everybody here knows Germany is in the process, the people in 
Germany are not dumb, they are in the process of phasing out 
their nuclear industry, I think by the year 2022. Switzerland 
and Spain have indicated they don't want any more nuclear power 
plants. So people around this planet have different views on 
nuclear power.
    All right, here is the issue that I did want to focus on, 
and that is the role of States. And I appreciate Senator Carper 
for reiterating my concerns. There are a number of States in 
which nuclear power plants will be shut down; California, 
Vermont, elsewhere. It is of enormous importance to the people 
in those States how the decommissioning process works. Will it 
take 60 years? Will it take, as has been the case, 10 years? 
Will the people of the State be satisfied about the lack of 
radioactivity in the area? Where will the nuclear fuel rods be 
placed? Who will get the jobs? What about the financial 
arrangements? All of which are of very much concern, I can tell 
you, to the State of Vermont. So I have three questions that I 
would like to ask for brief responses to the members of the 
Commission.
    Do you agree that States have a strong interest in how 
their nuclear plants are decommissioned? Ms. Macfarlane.
    Ms. Macfarlane. I would agree that States and the public 
certainly have a strong interest.
    Senator Sanders. Ms. Svinicki.
    Ms. Svinicki. Yes, States have an interest.
    Senator Sanders. Mr. Apostolakis.
    Mr. Apostolakis. Yes.
    Senator Sanders. Mr. Magwood.
    Mr. Magwood. Yes.
    Senator Sanders. Mr. Ostendorff.
    Mr. Ostendorff. Yes.
    Senator Sanders. OK.
    Do you agree that it is fair and reasonable for the host 
State to have a real seat--now, I know the term real seat is 
not quite a technical term, but a significant role to play--
during the decommissioning process; not just a hearing, not 
just giving their opinion, but having a seat at the table 
helping to determine the outcome? Ms. Macfarlane.
    Ms. Macfarlane. Let me just explain something. What we do 
is regulate the safety and security of these facilities as they 
decommission. Let's just talk about the decommissioning piece 
of this. And in that our relationship is with the licensee. We 
are holding them accountable to make sure that they are 
providing safety and security. Now, the public should have some 
kind of role, OK? And we do encourage public engagement; we do 
hold public meetings----
    Senator Sanders. You and I chatted about this issue.
    Ms. Macfarlane. We encourage strongly that the licensee 
form some kind of community advisory board in which they can--
--
    Senator Sanders. OK, I apologize, I just don't have a whole 
lot of time. I understand all that; we chatted. Community 
advisory, that is not satisfactory to me because advice can be 
rejected. So my question to you all is should the States 
themselves, who have to deal with the consequence of the 
decommissioning process, have a real--and I understand real is 
not a technical term, but be part of the process such that if 
what is negotiated between the industry and the NRC is not 
satisfactory, that will not happen; to be a real player in the 
process? Should the States have that type of authority? Ms. 
Macfarlane, very briefly.
    Ms. Macfarlane. I think it depends on the specific 
situation in the State. I think that there are more interests 
at stake than just the Governor of the State; there are local 
interests as well.
    Senator Sanders. Absolutely.
    Ms. Macfarlane. Those need to be represented.
    Senator Sanders. But in our democratic society it is the 
State government that ends up getting elected to do those 
things.
    Let me just say this, because I think I am probably not 
going to get a clear answer from any of you. This is a very, 
very important issue. I think your rules right now are not 
satisfactory. I think you do not give enough input--not input, 
you don't give enough power, if you like, in the decisionmaking 
power to the people of the States. I would hope, and you and I 
will chat about this, Ms. Macfarlane, that we will change the 
rules as they are currently constituted. If you do not change 
the rules, I will introduce legislation to make sure that 
States do have that authority.
    Madam Chair, thank you.
    Senator Boxer. Thank you. And you can count on my support 
for that, because I think decommission; I think Massachusetts 
has one coming as well.
    Senator Sessions.
    Senator Sessions. Thank you.
    Well, we don't want to get the Government out, I assume, of 
solar, auto, ethanol, wind powers.
    Senator Boxer. How about oil?
    Senator Sessions. Oil? There is not much in that except----
    Senator Boxer. Except $6 billion a year.
    Senator Sessions. That is a disputed fact.
    Senator Boxer. OK.
    Senator Sessions. As to whether or not that is any special 
tax break or whether it is just a normal tax situation oil 
corporations have.
    OK, what I would like to see Bellefonte done in Alabama. I 
don't know whether Vermont does. They sued Vermont Yankee 
multiple times. I guess they finally just gave up and closed 
the plant. That is all right; Vermont wants to have their 
electricity produced using carbon fuels or whatever, so be it. 
I would like to see clean nuclear power be used more around the 
country.
    Now, I raise this concern because I am really worried about 
it. I think all of you are aware of the situation we have 
concerning constriction of nuclear power, and it is staged now. 
I get to second guess your regulatory powers and maybe they 
have a right to do so, but if they jump in and double up on the 
cost of closing a plant or opening a plant, it is just one more 
burden that makes it even less likely that we will have an 
expansion of nuclear power and more likely that we will see 
this decline continue. So I am worried about it.
    Ms. Svinicki, you have been on the Commission for some time 
and you have observed these issues develop. Would you give your 
thoughts to us and share your thoughts with us about what might 
be contributing to the erosion of nuclear power generation and 
the failure of new plants to get started that we thought would 
be started?
    Ms. Svinicki. Well, I think, as is well acknowledged by 
economic experts, the situation of abundant natural gas, while 
good for the United States in many ways, does affect the 
economics of both new nuclear, but also current nuclear. So 
from the regulatory standpoint, although we don't control any 
of those macroeconomic factors, I think that our pledge as a 
Commission is to make certain that we do the most disciplined 
sort of analysis and work so that we are only imposing 
regulations that we have thoroughly analyzed and justified.
    Senator Sessions. Is it possible that these regulatory 
factors and, let's say, a lack of final certainty over waste 
disposal and Yucca Mountain and cumulative costs of compliance 
are affecting the future of nuclear power?
    Ms. Svinicki. I support the Commission's action to address 
the court's remand to us of our waste confidence decision. I 
think that the Commission and the agency staff are taking quick 
and responsible action to address the deficiencies that the 
court identified, which were not the entirety of the rule that 
we had put forward, but the court asserted and found that our 
analysis and evaluation lacked certain points. We are remedying 
those specific deficiencies and, as the chairman has noted, 
although we have delayed our schedule by 1 month, we still 
continue to push forward very aggressively.
    Senator Sessions. Well, it is worse than that. The court 
hammered the Commission and Congress and declared it was an 
absolute violation of multiple requirements of law, and it goes 
to the very core of who writes law in America. Congress passed 
laws, we chose this site, it has been authorized and directed, 
fees have been collected in billions of dollars, and very 
little action has been done. Wouldn't you agree that the 
court's decision was a real critique of the failure to act on 
the congressionally approved Yucca Mountain site?
    Ms. Svinicki. Yes, on the matter of Yucca Mountain, the 
court's language was unequivocal and was very, very strong. 
But, again, we have taken actions to address the writ of 
mandamus.
    Senator Sessions. Will that be completed in what time?
    Ms. Svinicki. Well, we are providing monthly reports to 
this committee. We do not have the team of NRC experts who will 
address that work fully assembled; I believe the last I heard 
last week we have 75 percent of the experts assembled. And as 
Chairman Macfarlane noted, I think they still anticipate it 
will take approximately 1 year.
    Senator Sessions. I understand she has talked about that 
previously, but I think if you need to reprogram money you 
should ask for it. It just comes down, at some point, to a 
constitutional question: Will the Government of the United 
States execute the laws established by the duly elected 
Congress? And you have a duty to do that. Not one member of the 
U.S. Senate, some powerful Senator, ought to be able to block 
what has been decided by the majority of Congress.
    I will say this, I believe if you are seeking investments 
to build a nuclear plant in the future, the fact that we have 
failed to have an approved disposal site is a factor--how much, 
I don't know--in weighing against building and going forward 
with investments in a plant. If you are not sure that that will 
ever be affected, ever saw, it could reduce your confidence 
that you can have the waste disposal disposed of as required, 
you will be less confident in investing.
    Ms. Macfarlane, how many plants are in license or re-
license process now?
    Ms. Macfarlane. In licensing process? We have nine combined 
license reviews underway. Many of them have been slowed down in 
part because there are delays in the design certifications for 
the plants, and those delays were requested by the vendors 
themselves. And there are no firm construction plans right now 
for those, including Bellefonte.
    Senator Sessions. Right.
    Ms. Macfarlane. But we do have five reactors under 
construction actively in the U.S. and we will be seeing, most 
likely, the completion of the Watts Bar 2 Unit.
    Senator Sessions. So you take the TVA, Watts Bar 2, the two 
at Vogtle----
    Ms. Macfarlane. Two at Vogtle and two at Summer in South 
Carolina.
    Senator Sessions. OK. And the Vogtle and Summer are 
entirely new?
    Ms. Macfarlane. They are entirely new designs, yes, the 
Westinghouse AP1000.
    Senator Sessions. I know you visited the Vogtle plant 
recently as part of your inspecting tour. I hope they don't 
complain about that travel; that is good travel. You can go and 
you can observe the plant and see what is going on. Was it your 
observation that these plants with the new design, AP1000 with 
passive cooling, so if all power is shut off, you can still 
allow the water to cool the system and prevent disaster, would 
that be an improvement on the Fukushima design and avoid some 
of the dangers that occurred there, and how would they?
    Ms. Macfarlane. Passive systems are certainly better than 
active systems, systems that have to be activated, so those 
passive systems are an improvement.
    Senator Sessions. For people who are listening, would you 
describe how the passive system would work?
    Ms. Macfarlane. In light of the time, I am going to take 
that one for the record.
    Senator Sessions. OK. Well, do you feel like these plants, 
the new ones that are moving forward, could help the United 
States be a leader in a modern nuclear plant and set an example 
for the world, as well as our country?
    Ms. Macfarlane. Well, it is our job at the Nuclear 
Regulatory Commission to ensure that the operating plants and 
the plants under construction are moving along safely, the 
plants are operating safely and securely. We are protective of 
public health and safety. It is not our job to prognosticate on 
the health of the nuclear industry or what is best in terms of 
nuclear policy or energy policy, we leave that up to Congress 
and the Administration.
    Senator Sessions. Well, you have a role to play in it, and 
excessive regulation at this time of real competition from low 
cost natural gas that is fairly clean, carbon fuel, but not as 
clean as nuclear power, I think that the scales could be tilted 
in a way that we could see a collapse in the future of nuclear 
power; and I think you have to be aware that there are 
ramifications from your decisions.
    Thank you for your work. I think all of you have tried to 
do the right thing for the country.
    Senator Boxer. Thank you so much, Senator.
    Senator Fischer.
    Senator Fischer. Thank you, Madam Chair.
    Thank you all for being here today. Nice to see you, Dr. 
Macfarlane.
    The NRC Principles of Good Regulation, they emphasize 
efficiency and focusing on activities that have the greatest 
safety significance. Rulemakings are a small portion of the 
total scope of your activities that licensees must respond to. 
How does your agency prioritize its non-rulemaking activities 
to ensure that your finite resources are focused on activities 
of the highest safety significance and in the most significant 
manner?
    Ms. Macfarlane. Let me first say thank you for your 
question.
    Senator Fischer. Do you believe that a prioritization 
process is necessary?
    Ms. Macfarlane. Yes, and we do use a prioritization process 
and we do work with industry in helping set that prioritization 
process, and I believe we are going to be receiving a staff 
paper on this topic this year. But let me just say that, in 
general, we weight safety and security as the highest priority 
setting factor, but we also depend on how new rules would fit 
into our strategic plan and what the interests are within the 
NRC, within Congress, within other governmental bodies, the 
public, NGOs, and, as I said, industry, of course.
    Senator Fischer. With regard to Fukushima and what is 
happening there, part of evaluating that lesson I think needs 
to be how you look in the future, the consequences and working 
with other agencies here within our Government, and especially 
with regards to more dams upstream, and if there would be any 
failures of those dams. This is a subject, I know, that is not 
just of interest to you, but also to our other agencies out 
there, the Corps, for example, Department of Homeland Security. 
How is the Commission coordinating its research on that?
    Ms. Macfarlane. We are working with the other agencies that 
you mentioned, as well, as the FERC, the Federal Energy 
Regulatory Commission, which also has some purview over dams. 
But we are working closely with them to deal with these issues. 
They are significant issues.
    Senator Fischer. Do you look at any uniformity in trying to 
come up with a good assessment on that?
    Ms. Macfarlane. Uniformity among the Federal agencies?
    Senator Fischer. Yes. How is that working?
    Ms. Macfarlane. Yes.
    [Laughter.]
    Ms. Macfarlane. We have our differences.
    Senator Fischer. Do you think you are going to be able to 
work together?
    Ms. Macfarlane. Yes. Yes. Certainly.
    Senator Fischer. I mean, this is a huge concern.
    Ms. Macfarlane. Yes.
    Senator Fischer. Do you have a formal process in place that 
you are following right now?
    Ms. Macfarlane. To work with other agencies? Yes, we do. 
Our staff has been coordinating with them and meeting with them 
on a regular basis.
    Senator Fischer. OK. Do you anticipate you are going to be 
coming up with a plan soon or is it going to be targeted for 
each area?
    Ms. Macfarlane. Let me get back to you with a specific 
answer on that one, OK?
    Senator Fischer. OK. And then from a review of industry 
performance over the last 20 years, it appears that the most 
significant safety improvements have been attained as a result 
of voluntary industry assessments to identify and fix those 
latent vulnerabilities. Do you agree with that?
    Ms. Macfarlane. No, I don't, actually.
    Senator Fischer. Good. Tell me why.
    Ms. Macfarlane. I don't think there is any evidence that 
any--let me put it this way, there have been a number of 
voluntary actions taken by the industry, but I think those have 
been prompted by actions within the NRC, in anticipation of new 
rules at the NRC.
    But my colleagues might disagree, and I encourage you to 
ask them.
    Senator Fischer. Yes. Do any of you have anything to add to 
that? Can you give me specific examples?
    Mr. Apostolakis. The studies that were done in the mid- to 
late 80s to identify so-called vulnerabilities certainly 
contributed to enhancing the safety of the plants, but I 
wouldn't call those the most significant safety improvements. I 
think we have made tremendous progress in fire protection, for 
example, where both the industry and the NRC staff have come up 
with ways of improving fire safety and understanding better. So 
I would say that is a more significant improvement.
    Senator Fischer. Thank you.
    Yes, sir.
    Mr. Ostendorff. Senator, thanks for the question. I would 
just provide another example, and that is in the context of the 
Fukushima action items. I would make two comments. One, the 
Commission, back in 2011, made a very concerted decision to 
prioritize those safety issues into Tier 1, Tier 2, and Tier 3, 
Tier 1 being the most important. And I think that served the 
Commission and the industry and the country well.
    The second piece I would mention is that in the context of 
Fukushima, industry developed what is called a flex proposal to 
deal with loss of power offsite, onsite, to deal with other 
issues associated with a catastrophic event. That has been a 
partnership; industry has developed that in response to our 
mitigating strategies order, so I would say it is really a 
partnership with lots of discussions, interactions between the 
regulator and the industry and the public on these issues.
    Senator Fischer. Yes, sir.
    Mr. Magwood. Senator, I think it is an excellent question 
and I think it is a complicated question because if you look at 
the operations of each individual nuclear power plant, 
licensees take actions both in response to NRC initiatives and 
also to their own desire to build margin and increase safety; 
and there is a handshaking that goes along with those. So I 
think each plant benefits from voluntary actions taken by 
licensees. How to add that up and compare them to regulatory 
actions, I don't think we have ever tried to do that, but I 
agree with my colleagues that I think the regulatory framework 
we put together is one that is built to assure safety, and when 
licensees go above that, that is just a good thing.
    Senator Fischer. Thank you very much.
    Thank you, Madam Chair.
    [The prepared statement of Senator Fischer follows:]

                    Statement of Hon. Deb Fischer, 
                U.S. Senator from the State of Nebraska

    Chairman Boxer and Ranking Member Vitter, thank you for 
holding today's hearing. Chairman Macfarlane and Commissioners, 
thank you for being here and sharing your time with us today.
    When Chairman Macfarlane was before our committee last 
year, I shared with her Nebraska's unique distinction of being 
the only State in the Nation that is 100 percent public 
powered. We are very proud of our public power system in 
Nebraska and thankful that we enjoy some of the lowest 
electricity costs in the country.
    In Nebraska, electricity costs are well below the national 
average--thanks, in part, to nuclear energy. Nebraska normally 
receives more than 25 percent of its electricity from its two 
nuclear power plants.
    Recent nuclear power plant shutdowns have shown us just how 
important nuclear energy is in keeping electricity rates down. 
The U.S. Energy Information Administration reported in July 
that the California power market experienced a 59 percent 
increase in wholesale power prices, which it attributed in part 
to the outage of the San Onofre Nuclear Generating Station.
    In Nebraska, we are very grateful that Omaha Public Power 
District's Fort Calhoun plant is now back online. We appreciate 
NRC's efforts to ensure a safe restart. We are also hopeful 
that following a process of more than 7 years, the license 
renewal for the Crow Butte uranium mining operation will be 
completed. Also pending before the NRC are license applications 
for development of three expansion sites in Nebraska, so our 
nuclear fuel resources can be safely developed for years to 
come.
    It is critical that we ensure the continued viability and 
success of the U.S. nuclear energy industry. The Nuclear 
Regulatory Commission plays an important role in that task. We 
must have an NRC that ensures the safety and security of our 
nuclear power and inspires public trust and confidence in our 
system. As the NRC does its work, it is critical that the 
Commission adheres to its principles of good regulation--
independence, openness, efficiency, clarity, and reliability.
    As NRC works to implement new safety enhancements, complete 
a safety evaluation of the Yucca Mountain repository, and 
review and approve licensing requests, we need a Commission 
that truly puts these principles into practice.
    Commissioners, I look forward to our discussion on these 
important issues at today's hearing.
    Thank you.

    Senator Boxer. So I want to thank my colleagues because 
this is really great. The votes, I guess, have just started? 
They just started, so that is really good.
    I want to thank all you commissioners for coming here 
today. We are going to have you back real soon because there 
are many more issues we didn't get to. Specifically, we are 
going to go in the next hearing, we are going to look at more 
of the transparency by commissioners. We are also going to look 
at the 12 recommendations that were made post-Fukushima for 
safety by your own staff, who between them all had 150 years' 
experience, who laid out 12 things you should be doing, you 
should do; and at that time there was a hope in the Commission 
to get those things done in 5 years. So Fukushima is March 2011 
and March 2012 has passed and March 2013, and we are 
approaching March 2014. My understanding is there is one rule 
out of the 12, and everything else is in stages.
    I also found it very interesting, talk about cost-benefit, 
and we are going to make public your vote because you don't 
seem to mind on who voted which way. My understanding is, 
chairman, you voted with everybody else not to do--I mean, 
everybody agreed not to do the two-person rule, so that, just 
to jog your memory, we found that in the public record 
somewhere, we dug for it. So the issue is that your own staff, 
who had 150 years of experience, said get these 12 things done, 
don't do a cost-benefit analysis because the cost of Fukushima, 
might I remind you, is pretty much immeasurable, and the 
benefits of avoiding that is pretty much immeasurable. But, no, 
you are doing cost-benefits on everything. So I am going to 
find out from you next time, all of you, the status of each of 
these 12 recommendations, and I hope you can move forward on 
them. That is very, very critical.
    The other thing, I am going to put in the record, Madam 
Chairman, a letter that I just got as you delivered, you signed 
it, this next tranche of information, and your answer to me 
was, well, if you still have a problem, call me. I have a 
problem, because you asserted some kind of a legal bar to your 
giving me everything. Is your general counsel here? I have 
never met her. Is she there? Could I meet her, please?
    Ms. Macfarlane. She is here.
    Senator Boxer. OK. I think it is important that you talk to 
my counsel and that you also speak with those who advise us, 
because our understanding is the privilege that you are 
suggesting is absolutely off the wall. And our understanding 
from every legal expert here is that you can assert executive 
privilege or your Fifth Amendment right not to incriminate 
yourself, and you are talking about some separation of powers. 
Well, the arrogance of that is unbelievable, because you 
wouldn't be here without the Congress. You wouldn't be here 
without the Congress setting you up. You wouldn't be here. And 
you have to be subjected to oversight and we have a right to 
documents, and when you sit there and you tell me and you tell 
Senator Vitter you are going to hand us all the documents we 
want, and then you don't, and you say very sweetly, oh, I would 
be happy to find out, if you need any more. Yes, I need them 
all. And I need to know what whistleblowers are saying. I need 
to know that all because I swear that I will uphold this 
Constitution and defend and protect the people that I represent 
and the people of this country.
    So this is not a good relationship. It certainly isn't. I 
feel very bad. It is not personal; I am sure each of us could 
just be very friendly on a personal level, but that is not what 
this is about. It is about openness and transparency; it is 
about safety; it is about accountability. And for you to 
withhold documents, which you admit that you are doing, based 
on some phony legal argument is beyond the pale. Maybe it winds 
up in court, maybe we sue you, I don't what we do. I want the 
information and I will get it, even if I have to go to 
whistleblowers. But I am just telling you get me the 
information, because when I have a situation where a plant was 
obviously in a dangerous situation, and even before the inquiry 
there was a staff opinion to let it go and open it, and I can't 
find out why and how is just wrong. So I am really sorry that 
this continues on and on.
    I thought maybe with a new chairman and a new spirit here 
things would change, but whether it is your travel that some of 
you want to have buried, you have asked us to make it 
confidential, don't tell people what we spend. What is that 
about? You are not above the American people. I want you to 
travel somewhere; I want you to go to Japan. I don't know, some 
of these other places look like they are really fun to go to. I 
don't know how much they have to do with anything. But I am 
hoping that you would go back and talk to each other, instead 
of going back and saying, oh, that Barbara Boxer, ooh. You have 
a right to do that, but I hope you will also change your 
attitude about openness, transparency, about moving a little 
quicker.
    To have adopted one out of these 12 recommendations, I 
don't understand it. Just look at the faces of the people who 
got caught. And you could say all you want it will never happen 
here. Don't say that. We never thought we would be hit on 9/11. 
We never thought we would see the likes of Hurricane Sandy. No 
one ever thought kids would have to be on a bus on an ice road 
for overnight, either. We are just not that powerful, we are 
just not. We are humble in the face of what could happen.
    So I hope you will go back and I hope your counsel will 
look at the law in the light that our experts are telling us, 
and our experts, they don't have anything to hide or anything 
to gain; they have just been advising Congress forever. And I 
have the opinion here. You know what? I will give it to your 
counsel. This is the summary of it. And we have the full book 
if you need it. But I hope you will take a look at this. Shall 
we give her the whole thing? OK, we will give you the whole 
entire book about it, because what you are telling us is simply 
unheard of, and we don't get it from any other agency, just so 
you know, we don't. People complain about EPA, but they are not 
asserting--they are asserting either executive privilege or one 
of the arguments that are legitimate.
    So we will have you back soon. We are going to look at the 
12 recommendations and how you are going about it. And I thank 
you for being here and for answering all the questions you did.
    Thank you very much. We stand adjourned.
    [Whereupon, at 11:29 a.m. the committee was adjourned.]

                                 [all]
</pre></body></html>
